HHS/OIG-Audit--"Nationwide Review of the Methodology for Identifying Medicare's Share of Graduate Medical Education Costs, (A-06-92-00020)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Nationwide Review of the Methodology for Identifying Medicare's Share of
Graduate Medical Education Costs," (A-06-92-00020)
April 29, 1994
Complete
Text of Report is available in PDF format (1.67 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out problems with the Health Care Financing Administration's
(HCFA) new methodology for reimbursing teaching hospitals for graduate medical
education (GME) costs. Our review of GME cost data of a sample of 120 teaching
hospitals disclosed two components in the new GME payment system that will cause
Medicare to share disproportionately in GME costs. The components are; (1) use
of inappropriate cost centers (for example, delivery room costs) in determining
Medicare reimbursement; and (2) inappropriately determined Medicare patient load
percentages. We are recommending that HCFA propose legislative and regulatory changes
to the new payment system to more accurately identify Medicare's share of GME costs.
Our recommended changes to the new methodology will reduce Medicare's share of
GME costs by an estimated $157.3 million a year.